                                               Office of Inspector General
                                              Corporation for National and
                                                       Community Service




                       AUDIT OF CORPORATIONFOR NATIONAL
                   AND COMMUNITYSERVICE  GRANTSAWARDED TO
                    THE VIRGINIA GOVERNOR'SCOMMISSIONFOR
                        NATIONAL  AND COMMUNITYSERVICE

                              OIG REPORTNUMBER
                                             06-27



;.w   I I,),,



                                                              fPjP~fyd**~&
                                                               COMMUNITY
                                                               SERVICE-




                                       Prepared by:

                               KEARNEY and COMPANY
                              4501 Ford Avenue, Suite 1400
                                Alexandria, Virginia 22302




                Thls report was issued to Corporation management on March 30,2006. Under
                the laws and regulations governing audit follow-up, the Corporation is to make
                final management decisions on the report's Rndlngs and recommendations no
                later than October 2, 2006, and complete its corrective actions by March 30,
                2007. Consequently, the reported findings do not necessarily represent the
                final resolution of the issues presented.
                                  Kxmy"kAL&
                                  COMMUNITY
                                  SERVICE=
                        OFFICEOF INSPECTOR GENERAL

               Audit of Corporation for National and Community Service
                                Grants Awarded to the
         Virginia Governor's Commission for National and Community Service
                                  Audit Report 06-27


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Kearney and Company (Kearney) to perform an incurred-cost
audit of grants awarded to the Virginia Governor's Commission on National and
Community Service (Commission).

Total Federal costs claimed by the Commission during the audit period totaled
$3,788,137. No questioned costs were identified by the auditors. However, the auditors
noted three instances of noncompliance with Federal regulations and grant provisions.
none of which is considered a material weakness.

In its response to the draft audit report, the Commission agreed with the findings and
cited correctivc actions that werc implemented prior to this report being issued.

The OIG reviewed Kearney's report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the Commission's financial statements,
conclusions about the effectiveness of internal control or conclusions on compliance with
laws and regulations. Keamcy is responsible for the attached auditor's report dated
Deccmber 2, 2005, and the conclusions expressed in the report. However, our review
disclosed no instances where Kearney did not comply, in all material respects, with
generally accepted government auditing standards.

The OIG provided officials of the Commission and the Corporation with a draft of this
report for review and comment. Their responses are included as Appendices A and B,
respectively.

This report is a matter of public record and its distribution is not limited.




                                               *
                    1201 New York Avenue, NW Suite 830, Washington, DC 20525
                                    *                      *
                       202-606-9390 Hotline: 800-452-8210 www.cncsig.gov              Freedoni Corps
                        Senior Corps * AmeriCorps
                                                                                      h k e o Dibmnm. Valunlatr.
                                                    Learn and Serve America
                Audit of the Corporation for National and Community Sewice
                                   Grants Awarded to the
            Virginia Governor's Commission for National and Community Service
                                    Richmond, Virginia

                                                     Table of Contents


SUMMARY AND HIGHLIGHTS
        Executive Summary ........................................................................................................
                                                                                                                             1
        Background .....................................................................................................................
                                                                                                                                    1
        Grant Programs Audited ................................................................................................
                                                                                                                         .2
        Summary of Results ........................................................................................................
                                                                                                                               3
        Compliance and Internal Control ..................................................................................,.3
        Purpose and Scope of Audit ............................................................................................4
INDEPENDENT AUDITOR'S REPORT ................................................................................
                                                                                                         ..5
CONSOLIDATED SCHEDULE OF AWARDS AND CLAIMED COSTS .............................
                                                                             7
COMPLIANCE AND INTERNAL CONTROLS
        Independent Auditor's Report on Compliance and Internal Controls Over
                Financial Reporting...............................................................................................
                                                                                                                             9
        Compliance and Internal Control Findings ..................................................................
                                                                                                                 .10

APPENDICES

Responses to Report

        Virginia Governor's Commission for National and Community Service ........Appendix A
        Corporation for National and Community Service ...........................................Appendix R
SUMMARY AND HIGHLIGHTS
                       Certryed l'lrblicAccountants
                       and Consultants
                                                          4501 Ford Avenue, Suite 1400,Alexandria, VA 22302
                                                          PH: 703.931.5600,FX:703.931.3655,www.keameyw.com




Office of Inspector General
Corporation for National and Community Service
1201 New York Ave, NW, Suite 830
Washington, DC 20525


                                       Executive Summarv

This report is issued by Kearney and Company under an engagement with the Office of Inspector
General (OIG) to audit the costs claimed by the Virginia Governor's Commission for National
and Community Service (Commission) and its subgrantees from April 1,2003, through March
31,2005, under the grants awarded by the Corporation for National and Community Service
(Corporation). We conducted our audit fieldwork from October 3 through December 2,2005, in
accordance with generally accepted government auditing standards, and included such tests of
internal controls as were considered necessary under the circumstances. This report summarizes
the results of the audit and identifies instances of noncompliance with laws, regulations, and
grant terms. In addition, the report disclosed weaknesses in internal controls intended to ensure
that grant funds were used for the purposes and in the amounts intended by the grants.

Backround

Under the authority of the National and Community Service Trust Act, the Corporation awards
grants and cooperative agreements to state commissions and other entities to assist in the creation
of full-time and part-time national and community service programs.

The Commission is an advisory board of 25 members appointed by the Govemor. Commission
members advise the Govemor on matters related to the promotion and development of various
types of citizen service and volunteerism in Virginia, the application of ~ e d e r kfunds for
national service, and fostering a sense of civic duty. The Commission performs various
administrative functions as defined by statute and corporation regulations; provides support to
the national service programs - AmeriCorps, Senior Corps, and Learn & Serve; and ensures an
infrastructure for service and sustaining national and community service in Virginia.

As of March 31,2005, the Commission had received funding from the Corporation for various
programs within the scope of this engagement in the amount of $10,186,193, of which we
identified no questioned costs. The majority of this amount was subgranted to numerous entities
to carry out local community service programs. A brief synopsis of the programs follows:
                     The Commission Grant Awards and Claimed Costs

                                                                        Federal
                                                                     Claimed Costs
                                                                     April 1,2003,
                                                          Funding       through
            Award          Program                       ~uthorizid March 3<2005
        03ACHVA001 AmeriCorps Competitive                $ 2,016,689     $ 869,094
        03AFHVA001 AmeriCorps Formula                      6,299,172       2,310,905
        Total AmeriCorps                                   8,315.861       3.179.999

        01SCSVA045 Administrative
        04CAHVA00 1 Administrative
        Total Administrative

       04PTHVA001        Program Dev. and Training           185,898              25,987
       95PDSVA045        Program Dev. and Training           508.467              68,092
       Total PDAT                                            694.365              94,079

       05CDHVA001 Disability
       02DSCVA046 Disability
       Total Disability

       Total Grants Administered by the Commission $10.1 8 6 , l B          $r388131
                                                                            -


Grant Programs Audited

Our audit of the Commission covered financial transactions, compliance with Federal laws,
applicable regulations and award conditions, and internal controls of the Corporation-funded
awards appearing below.


      Program              Award Number             Award Period              Audit Period
AmeriCorps                 03ACHVA001             8/25/03 to 8/24/06        8/25/03 to 3/31/05
AmeriCorps                  03AFHVA001            9/25/03 to 9/24/06        9/25/03 to 313 1/05
Administrative              01 SCSVA045           1/1/03 to 12/31/03       4/01/03 to 12/31/03
Administrative             04CAHVA001             1/1/04 to 12/31/06        1/01/04 to 3/31/05
Disability                 05CDHVA001             1/1/05 to 12/31/07        1/01/05 to 3/31/05
Disability                  02DSCVA046            1/1/02 to 12/31/04       4/01/03 to 12.131/04
PDAT                        04PTHVA001            1/1/04 to 12/31/06        4/01/04 to 313 1/05
PDAT                        95PDSVA045            1/1/95 to 12/31/03       4/01/03 to 12131/03
The Commission's subgrantees selected for site visits were as follows:


                      Subgrantee                          Total Federal        Percentage of
                                                          Claimed Costs        Total Federal
                                                                               Costs Claimed
 Virginia Community Corps (VCC)                             $    662,799            17.50
 Action for Community Enhancement Services (ACES)                550,993            14.55
 Virginia Commonwealth University (VCU)                          448,781            11.85
 Mountain Empire Community College (MECC)                        395,043           10.43
                                                                                   54.33
                                                                                   Subgrantees




Our audit of the costs claimed by the Commission under these awards disclosed the following:




Claimed Costs                                                   3,788,137            37
Questioned Grant Costs                                             0                 0
Questioned Education Awards                                        0                   -
Summary of Results

Our audit report expresses an unqualified opinion on the Consolidated Schedule of Awards and
Claimed Costs. We identified no questioned costs.

We have issued a report titled, "Independent Auditor's Report on Compliance and Internal
Controls over Financial Reporting," which is applicable to the audit of the Consolidated
Schedule of Award and Claimed Costs. In that report, we identified findings required to be
reported under Government Auditing Standards.

Compliance and Internal Control

Our audit disclosed the following instances of non-compliance with Federal laws, applicable
regulations and award conditions:

   1. The Commission did not have adequate monitoring or other procedures in place to ensure
      that subgrantees provided Workers' Compensation coverage or Occupational Accidental
      Death and Dismemberment coverage to AmeriCorps members to cover in-service injuries
      or accidents.

   2. The Commission did not have adequate monitoring procedures in place to ensure timely
      submission of reports by subgrantees to the Web-Based Reporting System (WBRS).
   3. The Commission did not have adequate monitoring or other procedures in place to ensure
      that subgrantees conducted and documented member orientation training for every
      AmeriCorps member.

Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Numbers 03ACHVA001 and
03AFI-IVA001 (AmeriCorps Competitive and Formula), 01SCSVA045 and 04CAHVA001
(Administrative), 05CDHVA001 and 02DSCVA046 (Disability), and 04PTHVA001 and
95PDSVA045 (PDAT) for the period April 1,2003, to March 3 1,2005.

The objectives of our audit were to determine whether:

       Award costs reported to the Corporation were adequately documented and allowable in
       accordance with the award terms and conditions
       Financial management systems used by the Commission presented accurate financial
       results of the sponsored programs
       Internal controls for financial and project systems complied with Corporation and Office
       of Management and Budget (OMB) requirements for administering grant funds
       The Commission and its subgrantees had adequate procedures and controls to ensure
       compliance with Federal laws, applicable regulations, and award conditions, and that
       member services were appropriate to the programs
       The Commission had established adequate oversight and had informed subgrantees of
       Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain reasonable assurance regarding whether
amounts claimed against the awards, as presented in the Consolidated Schedule of Awards and
Claimed Costs, are free of material misstatement. Our audit included examining, on a test basis,
evidence supporting the amounts and disclosures in the Consolidated Schedule of Awards and
Claimed Costs. An audit also includes assessing the accounting principles used and significant
estimates made by the auditee, as well as evaluating the overall financial schedule presentation.
Our audit included reviews of audit reports and working papers prepared by the independent
public accountants for the Commission and its subgrantees in accordance with thc requirements
of OMB Circular A-1 33, Audits ofstates, Local Governments, and Nun-projt Organizations.

The contents of this report were disclosed to, and discussed with, the Commission at an exit
conference on January 5,2006. In addition, we provided a draft of this report to the Commission
and the Corporation for comment. The Commission and Corporation responses are included as
Appendices A and B, respectively, in this report.
KEARNEY&
COMPANY                Certtjied Pub& kcountantr
                       and C o d m
                                                          4501 Ford Avenue, Suite 1400, ~ ~ e x i d VA
                                                                                                             -
                                                                                                    ' i i 22302
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyw.com




Office of Inspector General
Corporation for National and Community Service
1201 New York Ave, NW, Suite 830
Washington, DC 20525


                                 Independent Auditor's Report

We have audited the accompanying Consolidated Schedule of Awards and Claimed Costs of the
Virginia Governor's Commission for National and Community Service (Commission) for the
award numbers listed below under the terms of the respective grant agreements between the
Corporation for National and Community Service (Corporation) and the Commission. The costs,
as presented in this schedule, are the responsibility of the Commission's management. Our
responsibility is to express an opinion on this schedule based on our audit.

       Program              Award Number               Award Period                   Audit Period
ArneriCorps                 03ACHVA001              8/25/03 to 8/24/06             8/25/03 to 3/31/05
ArneriCorps                 03AFHVA001              9/25/03 to 9/24/06             9/25/03 to 313 1/05
Administrative              01SCSVA045              1/1/03 to 12/31/03            4/01/03 to 12131/03
Administrative              04CAHVA001              1/1/04 to 12/31/06             1/01/04 to 3/31/05
Disability                  05CDHVA00 1             1/1/05 to 12/31/07             1/01/05 to 3/31/05
Disability                  02DSCVA046              1/1/02 to 12/31/04            4/01/03 to 12131/04
PDAT                        04PTHVA001              1/1/04 to 12/31/06             4/01/04 to 3/31/05
PDAT                        95PDSVA045              1/1/95 to 12/31/03            4/01/03 to 12/31/03

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedule is free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

In our opinion, the Consolidated Schedule of Awards and Claimed Costs presents fairly, in all
material respects, the costs claimed for the period April 1,2003, through March 31,2005, in
conformity with the terms of the Commission's grant agreements with the Corporation.

In accordance with the Government Auditing Standard+ we have also issued our report, dated
December 2,2005, on compliance and internal controls over financial reporting.
KULRWEY&
COMPANY
This report is intended for the information and use of the Office of Inspector General,
management of the Corporation, the Commission and its subgrantees, and the United States
Congress.




December 2,2005
Alexandria, Virginia
          Virginia Governor's Commission for National and Community Service
                   Consolidated Schedule of Awards and Claimed Costs
                   For the Period April 1,2003, through March 31,2005

                   Corporation for National and Communitv Service Awards

                                                                   Federal Claimed
                                                                        Costs
                                                                    April 1,2003,
                                                       Funding        through
            Award              Program                Authorized March 31,2005
       03ACHVA001       AmeriCorps Competitive        $ 2,016,689       $ 869,094
       03AFHVA00 1      AmeriCorps Formula              6,299.1 72        2.3 10,905
       Total AmeriCorps                                 8,315,861         3.1 79,999

       01SCSVA045         Administrative
       04CAHVA001         Administrative
       Total Administration

       04PTHVA00 1        PDAT
       95PDSVA045         PDAT
       Total PDAT

       05CDHVA001         Disability
       02DSCVA046         Disability
       Total Disability

       Total Grants Administered by the Commission    $1 0.186.193

Notes to Consolidated Schedule of Awards and Claimed Costs

1. Summary of Sienificant Accountine Policies
Reporting Entity
The accompanying Consolidated Schedule of Awards and Claimed Costs includes amounts
budgeted and claimed under AmcriCorps Competitive, AmeriCorps Formula, Administrative,
Disability, and Program Dcvelopment and Training grants awarded to the Virginia Governor's
Commission for National and Community Service (Commission) by the Corporation for
National and Community Service (Corporation) for the period from April 1,2003, through
March 3 1,2005.

The Commission awards its AmeriCorps Competitive and AmeriCorps Formula Grants to
numerous subgrantees that operate the AmeriCorps programs and report financial and
programmatic results to the Commission and the Corporation.

Basis of Accounting

The accompanying Consolidated Schedule of Awards and Claimed Costs was prepared in
accordance with the provisions of grant agreements issued by the Corporation.
                                                         4501 Ford Avenue, Suite 1400, Alexmdria, VA 22302
                                                         PH: 703.931.5600, FX:703.931.3655, www.kcameyco.eom




Office of Inspector General
Corporation for National and Community Service
1201 New York Ave, NW, Suite 830
Washington, DC 20525


                      Independent Auditor's Report on Compliance and
                         Internal Controls over Financial Reporting

We have audited the Consolidated Schedule of Awards and Claimed Costs of the Virginia
Governor's Commission for National and Community Service (the Commission) and have issued
our report thereon, dated December 2,2005, covering the awards listed below:

       Program              Award Number              Award Period                  Audit Period
AmeriCorps                  03ACHVA001             8/25/03 to 8/24/06            8/25/03 to 313 1/05
AmeriCorps                  03AFHVA001             9/25/03 to 9/24/06            9/25/03 to 313 1/05
Administrative              01SCSVA045             1/1/03 to 12/31/03           4/01/03 to 12131/03
Administrative              04CAHVA001             1/1/04 to 12/31/06            1/01/04 to 3/31/05
Disability                  05CDHVA001             1/1/05 to 12/31/07            1/01/05 to 3/31/05
Disability                  02DSCVA046             1/1/02 to 12/31/04           4/01/03 to 12131/04
PDAT                        04PTHVA001             1/1/04 to 12/31/06            4/01/04 to 313 1/05
PDAT                        95PDSVA045             1/1/95 to 12/31/03           4/01/03 to 12/31/03

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain reasonablk assurance about whether the
financial schedules are free of material misstatement.

In planning and performing our audit of award costs as presented in the Consolidated Schedule
of Awards and Claimed Costs for the period April 1,2003, to March 3 1,2005, we considered the
Commission's internal controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedule, and not to provide assurance on the internal
controls over financial reporting. Consequently, we do not provide an opinion on internal
controls.

Our consideration of internal controls would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards established
by the American Institute of Certified Public Accountants, reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal controls that, in our judgment, could adversely affect the entity's ability to record,
process, summarize, and report financial data consistent with the assertions of management in
the financial schedules. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a relatively low
level the risk that errors or irregularities in amounts, which would be material in relation to the
financial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. The following
paragraphs present reportable conditions identified during our audit.


Compliance and Internal Control Findin@

Finding Number 1 - Occu~ationalAccidental Death and Dismemberment Coverage not
Provided for Members

Condition

Action for Community Enhancement Services (ACES), a program of the City of Richmond,
Virginia's Human Services Commission, did not make Workers' Compensation contributions or
provide Occupational Accidental Death and Dismemberment coverage for its AmeriCorps
members to cover in-service injuries or accidents for Program Year 2003-2004. However,
beginning with Program Year 2004-2005, the Commission provided coverage for all Virginia
AmeriCorps members. Not providing Workers' Compensation or Occupational Accidental
Death and Dismemberment coverage is a violation of AmeriCorps Provisions, and could
unnecessarily expose the Corporation, the Commission and the City of Richmond to financial
loss in the event of a service related accident.

AmeriCorps Provisions [Final - June 20021, B. ArneriCorps Special Provisions, 11. Living
Allowances, Other In-Service Benefits and Taxes, d. Taxes and Insurance, v. Worker's
Compensation states, in part:

        The Grantee is responsible for determining whether state law requires the provision of
        worker's compensation for members. If a program is not required by state law to
        provide worker's compensation, the Program must obtain Occupational Accidental
        Death and Dismemberment insurance coverage for members to cover in-service injury or
        incidents.

Title 65.2 of the Code of Virginia, 3 65.2-500 paragraph E. states, in part:

        AmeriCorps members as defined in subdivision r of 5 65.2-101 shall not be eligible to
        receive weekly compensation for total incapacity, whether permanent or temporary,
        regardless of whether the injury results in death.

Recommendation

1.     We recommend that the Corporation ensure that the Commission continues to provide
       accident coverage to AmeriCorps members through Workers' Compensation or
       Occupational Accidental Death and Dismemberment insurance, and further ensure that
       all subgrantees are aware of and compliant with all applicable laws, regulations, policies
       and procedures of the Commonwealth of Virginia and Amencorps Provisions regarding
       accident coverage.

Commission S Response

In July 2004, the Virginia General Assembly passed legislation specifically providing worker's
compensation coverage for AmeriCorps members. Since that time the Commission has provided
worker's compensation coverage in accordance with the statute.

Auditor's Comment

The procedures described in the Commission's response should be sufficient to prevent the
recurrence of this finding in future audits.


Finding Number 2 - Untimely Submission of Financial Status Reoorts

Condition

We found that the Virginia Community Corps' final Financial Status Report (FSR) was
submitted 236 days beyond the required 90 days after the grant close-out. We also identified two
other subgrantees' FSRs which were not entered into WBRS by the due dates established by the
Commission. Mountain Empire Community College (MECC) submitted its first quarter 2004
FSR 17 days late. ACES submitted its first quarter 2004 FSR 13 days late.

The Commission did not perform adequate monitoring of its subgrantees to ensure that they
submitted reports timely. The late submissions were due to employee turnover at the subgrantee
sites. Submitting financial information late could result in the Corporation making management
decisions based on inaccurate and unreliable data.

AmeriCorps Provisions [Final-June 20021, B. AmeriCorps Special Provisions, 16. Reporting
Requirements, a. Financial Status and Progress Reports, iv. Final Financial Status Reports, states,
in part:

        A Grantee completing the final year of its grant must submit, in lieu of the last semi-
        annual FSR, a final FSR that is cumulative over the entire project period. This FSR is
        due within 90 days after the end of the grant.

AmeriCorps Provisions [Final-July 20031, B. AmeriCorps Special Provisions, 16. Reporting
Requirements, a. Financial Status and Progress Reports, i. Financial Status Reports, states in
part:

        The Grantee shall submit semi-annual cumulative financial status reports summarizing
        expenditures during the reporting period using the government Financial Status Report
        (FSR) form (Standard Form 269A).
        Financial Status Report deadlines are:

        Due Date                       Reporting Period Covered
        April 30                       Start of the grant through March 3 1
        October 30                     April 1 - September 30

        A Grantee properly utilizing WBRS meets financial reporting requirements when the
        Grantee uses that system to submit reports within the approved timeframes. A Grantee
        must set its own submission dcadlines for its respective Sub-Grantees.

Recommendation

2.      We recommend that the Corporation direct the Commission to ensure that its procedures
        are effective for monitoring subgrantees' FSR and Periodic Expense Report compliance.

Commission's Response

The Commission has instituted clearly definable timeframes for subgrantees' reports, which are
monitored for compliance.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the recurrence of this finding in future audits.


Finding Number 3 - Member Orientation Participation not Documented

Condition

Two subgrantees, Virginia Commonwealth University (VCU) and MECC, could not locate
documentation that one member each (of five members tested oer site), oarticioated in the
                                                                          A

required orientation for Program ~ear2003-2004.The VCU documentation kas destroyed in
routine purging of files due to insufficient storage space. The MECC documentation could not
be located by the current MECC program director, who did not hold the position at the start of
the 2003-2004 Program Year when the orientation would have been conducted. Members who
do not receive the required orientation training may be uninformed about program procedures,
service activities and member conduct.

AmeriCorps Provisions [Final-July 20031, B. AmeriCorps Special Provisions, 7. Training,
Supervision and Support, c. Training, states, in part:

        The Grantee must conduct an orientation for members and comply with any pre-service
        orientation or training required by the Corporation. This orientation should be designed
        to enhance member security and sensitivity to the community.
AmeriCorps Provisions [Final-July      20031, C. General Provisions, 27. Retention of Records,
states, in part:

        The Grantee must retain and make available all financial records, supporting
        documentation, statistical records, evaluation and program performance data, member
        information and personnel records for 3 years from the date of the submission of the
        final Financial Status Report (SF 269A).

Recommendation

3.     We recommend that the Corporation direct the Commission to work with subgrantees to
       ensure that an orientation is conducted for all members, and that supporting
       documentation (orientation agenda, member sign-in sheets) is retained for at least three
       years after submitting the final FSR.

Commission 's Resvonse

The Commission will ensure that all subgrantees conduct orientations for all members and retain
documented support. The Commission will review members' files regularly for compliance.

Auditor's Comment

The procedures described in the Commission's response, subject to implementation and
validation, should be sufficient to prevent the recurrence of this finding in future audits.




December 2,2005
Alexandria, Virginia
                            Appendix A

Virginia Governor's Commission for National and Community Service's
                       Response to Report
To:            Ronald Huritz, Audit Manager

From:          John Moody Senior Program Officer

Ce:            Doug Gerry, Solomon Abah, Jack Frazier, Charles Nicholson, Yvonne Vaughn

Date:          Friday, March 10,2006 5:26 PM [via electronic mail]

Sub:           Request for Comments - Draft Audit Report - VA Commission


Ron,

Noted herein is the Virginia Commission's response to the OIG Draft Audit Report, as requested.


Finding Number 1 - Commission's Response

The Virginia General Assembly passed legislation effective July 1 2004 (incorporated in Section
65.2 - 101. subdivision r. of the Code of Virginia) which specifically provides worker's
compensation coverage for AmeriCorps members. Accordingly, AmeriCorps members are
deemed to be employees of the Commonwealth for purposes of thc Workers' Compensation Act.
The Act states that AmeriCorps members shall be eligible for reimbursement for medical costs
from covered injuries, but shall not be eligible to receive weekly compensation.

The Virginia Commission ensures that each member is covered in accordance with the statute by
submitting the names of all enrolled members to the Office of Workers' Compensation as
required.

Finding Number 2 - Commission's Response

The Virginia Commission has instituted clearly definable timeframes for subgrantees' FSRs and
Pcriodic Expensc Reports. Subgrantees are monitored in accordance with the applicable
timeframes to ensure compliance.

find in^ Number 3 - Commission's Response

The Virginia Commission will ensure that all subgrantees provide the required orientation for all
members, and that supporting documentation is retained for at least three years after submitting
the final FSR. All members' files will be strictly reviewed and monitored during site visits and
via desk auditireview, if warranted, to ensure compliance.


Please let me know if you have any questions.

Thanks,
John

John L. Moody
Senior Program Officer
Virginia Governor's Commission for National & Community Service
7th North 8th Street
Richmond, Virginia 23219
(804) 726-7072
www.vaservice.org
                           Appendix B

Corporation for National and Community Sewice's Response to Report
                                    C&XLES
                                    COMMUNITY
                                    SERVICE-




To:

From:

Cc:           ~lizabetk4eafe,Acting Director A&$drps
              Tory Willson, Audit ~esolutionCoordinator

Date:         March 10,2006

Sub:          Response to OIG Draft Audit Report, Audit of Corporation for National and
              Community Service grants awarded to the Virginia Governor's Commission on
              National and Community Service


Thank you for the opportunity to review the draft report on the audit of Corporation grants
awarded to the Virginia Governor's Commission on National and Community Service
(Commission). We were pleased that the audit report expressed an unqualified opinion and there
were no questioned costs.

The report noted that one of the programs was not following requirements related to Workers'
Compensation or Occupational Accidental Death and Dismemberment insurance in one year, but
that the Commission now provides coverage for all Virginia ArneriCorps members. The
Corporation agrees this coverage is a requirement and will ensure coverage continues and that
the commission ensures its subgrantees understand and follow requirements.

The report recommended that the Corporation direct the Commission to ensure that its
procedures are effective for monitoring subgrantee' FSR and Periodic Expense Report
compliance. The Corporation agrees and will follow-up with the Commission to strengthen its
FSR procedures. The Corporation also monitors receipt of the grantee FSR through eGrants and
sends overdue notices through the system to the grantee.




                          1201 New York Avenue, NW     *
                                                   Washington, DC 20525
                                                *
                                202-606-5000 mnationalservice.org                      USA\ =
                                                                                       Freedom Corns
                          Senior Corps   * AmeriCorps * Learn and Serve America
